HHS/OIG, Audit -"Emergency Response to Hurricanes Katrina and Rita: Audit of Program Support Center’s Procurement Process for Contract Action HHSP233200500508G with Alaska Structures, Inc.,"(A-03-06-00504)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency Response to Hurricanes Katrina and Rita: Audit of Program Support Center’s Procurement Process for Contract Action HHSP233200500508G with Alaska Structures, Inc.," (A-03-06-00504)
June 26, 2006
Complete Text of Report is available in PDF format (257 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether the Program Support Center (PSC) complied with applicable Federal Acquisition Regulations and Health and Human Services Acquisition Regulation requirements while making the involved procurement.  PSC procurement officials complied with Federal acquisition requirements during the award process of $487,467 and $603,570 for the contract action HHSP233200500508G under Contract Number GS07F0084K with Alaska Structures, Inc., for provision of services to hurricane victims.  Because this report contained no recommendations, no response was necessary.